IN THE SUPREME COURT OF THE UNITED STATES

MARITIME LIFE CARIBBEAN LIMITED
Petitioner

vs.

No: 19-0061

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
July 17, 2019
cc:
WILLIAM V. ROPPOLO
BAKER, MCKENZIE
1111 BRICKELL AVENUE
SUITE 1700
MIAMI, FL 33131
MICHAEL A. POLLARD
BAKER, MCKENZIE
300 EAST RANDOLPH STREET
SUITE 5000
CHICAGO, IL 60601

